Monday, June 28, 2021

Austin v. California

-5059

IN THE
SUPREME COURT OF THE UNITED STATES
Supre

* * *

me CONUS'
FILED

JON 2 $ 2021
Case No:

GREGORY A. AUSTIN,
Plaintiff and Petitioner,
vs.
STATE OF CALIFORNIA
as Represented by
Defendants and Respondents of Its
Superior Court Judiciary Branch, Family
Law Division, Begert, Colfax, Flores, and
Wiley, Massulo, et al.

)
)
)
)
)
)
)
)
)
)
)
)
)

OFFICE OF

I^CiERK

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

PROPOUNDING PARTY:

Gregory A. Austin

RESPONDING PARTY:

State of California

I, GREGORY A. AUSTIN, hereby formally request leave to file the attached petition for
a writ of certiorari without prepayment of costs and to proceed in forma pauperis. I have
previously been granted leave to proceed in forma pauperis in the 9th Circuit Court Of Appeals,
and the Northern District of California.

My affidavit or declaration in support of this motion is attached hereto.

received

JUL - 7 2021

I

Monday, June 28, 2021

Austin v. California

Affidavit or Declaration In Support Of Motion
For Leave To Proceed In Forma Pauperis
I, Gregory Austin, xxx-xx-6214, am the petitioner in the above-entitled case. In support of my
motion to proceed in forma pauperis, I state that because of my poverty I am unable to pay the
costs of this case or to give security therefor; and I believe I am entitled to redress.
For both me and my spouse (not applicable) I have estimated the average amount of money
received from each of the following sources during the past 12 months. I have adjusted any
amount that was received weekly, biweekly, quarterly, semiannually, or annually to show the
monthly rate. I have used gross amounts, that is, amounts before any deductions for taxes or
otherwise.

Income source
Employment

0

Self-employment

0

Income from real property (such as rental income)

0

Average monthly amount during the past 12 months

0

Amount expected next month

0

Me

0

Spouse

Not Applicable

Me

0

Interest and dividends

0

Gifts

0

Alimony

0

Child Support

0

Retirement (social security, pensions, annuities, insurance)

0

Disability (such as social security, insurance payments)

0

Unemployment payments

0

Monday, June 28, 2021

Austin v. California

0

Public-assistance (such as welfare)
Other (specify):

$2k

(CARES & ARP stimulus)

Total monthly income:
Minus $400 rent.
Minus $100 utilities.
Minus $200 fuel.
Minus $300 food and other amenities.
Minus $50 phone.
Subtotal Monthly Income

Minus $883

List my employment history for the past two years, most recent first.
(Gross monthly pay is before taxes or other deductions.)

0

Employer Address
Dates of Gross monthly pay Employment

N/A
N/A

List my spouse’s employment history for the past two years,
most recent employer first.
(Gross monthly pay is before taxes or other deductions.)

N/A

Employer Address Dates of Gross monthly pay Employment

N/A

How much cash do you and your spouse have?

Less than $1000

Below, state any money you or your spouse have in bank accounts
or in any other financial institution.

No banking

Type of account (e.g., checking or savings)
Amount you have
Amount your spouse has

None
0
N/A

List the assets, and their values, which you own or your spouse owns.
and ordinary household furnishings.
(Do not list clothing)

Austin v. California

Monday, June 28, 2021

Home Value

No home

Vehicle and Value: 2008 Dodge Challenger

~$10k

Other assets and Value: Few guitars, an old laptop
Other real estate Value

~$3k
None

Motor Vehicle #2 Year, make & model

None

State every person, business, or organization owing me
or my spouse money, and the amount owed.
Person owing me or my spouse money

Defendant(s)

Amount owed to me Amount owed to my spouse

$2,498,418
plus personal injury
if applicable,
paid per Article One

State the persons who rely on me or my spouse for support.
Instead of names, I use initials (e.g. “J.S. ” instead of “John Smith ”).

No one

Name Relationship

N/A

Estimate the average monthly expenses of me and my family.
Paid by my spouse.
Adjust any payments that are made weekly, biweekly, quarterly,
or annually to show the monthly rate.

Previously Adjusted

For minor children, list initials

N/A

Rent or home-mortgage payment (include lot rented for mobile home)

Previously Listed

Me
My spouse

Previously Listed
N/A

Show separately the amounts

Previously Listed

Are real estate taxes included?

N/A

Is property insurance included?

N/A

Utilities (electricity, heating fuel, water, sewer, and telephone)

Previously Listed

Previously Listed

Austin v. California

Monday, June 28, 2021

Home maintenance (repairs and upkeep) Food
Clothing
Laundry and dry-cleaning

Previously Listed
Previously Listed
Previously Listed

Medical and dental expenses
Off-label antihelmenthics

minus $200

Transportation (not including motor vehicle payments)
Recreation, entertainment, newspapers, magazines, etc.
Insurance (not deducted from wages or included in mortgage payments)

Previously Listed
0
minus $200

Me
My spouse

Previously Listed
N/A

Homeowner’s or renter’s
Life
Health
Motor Vehicle
Other:

None
None
Previously Listed
Previously Listed
None

Taxes (not deducted from wages or included in mortgage payments)
(specify):

Sales taxes

Installment payments
Motor Vehicle
Credit card(s)
Department store(s)
Other:

0
0
0
0

Alimony, maintenance, and support paid to others

0

Regular expenses for operation of business, profession,
or farm (attach detailed statement)

N/A

Other (specify):

0

Total monthly expenses:

$833

Austin v. California

Monday, June 28, 2021

Do I expect any major changes to my monthly income
or expenses or in my assets or liabilities during the next 12 months?
Yes. I expect either slow or rapidfinancial decay.
If yes, describe on an attached sheet.

N/A

Have I paid - or will I be paying - an attorney any money for services
in connection with this case, including the completion of this form?
No, although I paid divorce attorney fees under a separate docket relating to this case.
How much?
If yes, state the other attorney’s name, address, and telephone number:
Michael David Raysor #258762 License Status: Active
Law Offices of Michael D. Raysor,
1558 West St Ste 1, Redding, CA 96001-1666
Phone: 530-276-0600
Fax: 530-348-9344
Email: michaelravsor@gmail.com
Website: www.ravsorlaw.com

$2500

Austin v. California

Monday, June 28, 2021

Have I paid—or will I be paying—anyone other than an attorney
(such as a paralegal or a typist) any money for services
in connection with this case, including the completion of this form?
Similarly, I paidfor consultation during the divorce, on a separate docket.
How much?

$2500

If yes, state the person’s name, address, and telephone number:
Richard Melone Bryan #34556 License Status: Active
Bryan & Hinshaw, 235 Montgomery St FI 30
San Francisco, CA 94104-3117
Phone: 415-296-0800
Fax: 415-296-0812
Email: Richard@brvanhinshaw.com
Provide any other information that will help explain
why I cannot pay the costs of this case:
Corporatism, Community Property Law, Family Law, State Practice ofLicense,
joblessness, homelessness, false allegations against me adjudicated, disinheritance,
peonage, and victimization by California s racketeering has left me broken and
financially destitute.
I declare under penalty of perjury that the foregoing is true and correct.

Gregory Austin

Executed on Monday, June 28, 2021.

